No. 19-__

 

IN THE

Supreme Court of the United States

JOSEPH BECKER, TERENCE BEVEN, WANDA BEVIS,
THOMAS EDDIE BOWDEN, TROY L. LILLIE, JR., ET AL.,

Petitioners,
v.

RALPH S. JANVEY, in his Capacity as Court Appointed
Receiver for Stanford International Bank Limited,
Stanford Group Company, Stanford Capital
Management L.L.C., Stanford Financial Group,
and Stanford Financial Group Bldg.,
CERTAIN UNDERWRITERS AT LLOYD’S OF LONDON,
ARCH SPECIALTY INSURANCE COMPANY,
LEXINGTON INSURANCE COMPANY, ET. AL.

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,961 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 21, 2020.

Ad

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
